                                                   Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General
Subject:   ACTION: Management Advisory: Accounting and                 Date:    October 12, 2005
           Financial Reporting of Related Hurricane Costs

  From:                                                              Reply to
           Theodore Alves                                            Attn of:   JA-20
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Assistant Secretary for Budget and
            Programs/Chief Financial Officer


           We recently performed a preliminary assessment of risk over the accounting,
           tracking, and financial reporting of the costs of Hurricanes Katrina, Ophelia, and
           Rita. The purpose of this assessment was to determine if the Operating
           Administrations (OAs) were establishing adequate procedures and controls, in
           response to your September 23, 2005 Hurricane Disaster Guidance, to track and
           report costs they have incurred. This effort is the first review conducted based on
           our October 6, 2005 announcement that we would perform a series of audits and
           investigations of the Department of Transportation’s (DOT) relief and recovery
           activities. We also anticipate that the Congress will hold hearings on the
           Department’s oversight of hurricane relief funds.

           This assessment addressed the first line of effort identified in our announcement
           letter—verifying that expenditures of Federal funds are being appropriately
           tracked by the OAs as required by the Assistant Secretary for Budget and
           Programs and Chief Financial Officer. The assessment does not address other
           lines of effort, such as whether OAs are providing adequate oversight of the
           activities being carried out by states with funds provided by DOT. Our
           assessment was limited to interviews of senior financial management officials and
           examination of limited documentation on September 28 to 30, 2005, in the Office
           of the Secretary (OST), Federal Aviation Administration (FAA), Federal Highway
           Administration (FHWA), Federal Transit Administration, Maritime
           Administration, and Pipeline and Hazardous Materials Safety Administration
           (PHMSA).



           Control No. 2006-001
                                                                                 2


Based on this assessment, this management advisory provides several observations
and concerns about how best to ensure that all DOT resources related to the
response, clean-up, and rebuilding activities are accurately tracked and reported.
We raised these issues at the weekly Hurricane Financial Stewardship Work
Group meeting on October 6, 2005, and OST officials agreed to address them
promptly.

RESULTS

Our assessment concluded the OAs were working to establish procedures and
controls to implement your September 23, 2005 Hurricane Disaster Guidance. For
example, OST seems to have good controls to track the Mission Assignments
DOT has received from the Federal Emergency Management Agency (FEMA).
Also, it is clear that all five OAs are being responsive to your direction and are
instituting processes to track costs.

However, our assessment identified areas where the OAs need to strengthen
implementation of your guidance. For example, all five OAs indicated that they
had established procedures to account for overtime and travel costs that they
believe will be reimbursed by FEMA. They were not, however, tracking all costs
incurred in responding to the hurricanes, as called for in your September 23, 2005
guidance. We identified three issues that need your immediate attention.

• Inadequate funds control. It appears that the Department may not have
  adequate control over the funds used to support transportation-related
  emergency response activities. Responsibility to provide these activities has
  been assigned to the FAA’s Southern Region. Inadequate funds control may
  create the risk that violations of appropriations law, including the Anti-
  deficiency Act, could occur. We found that a lack of clarity regarding roles,
  responsibilities, and authority, among several components of the Department
  (including FAA’s Southern Region; FAA’s Chief Financial Officer; the Office
  of Intelligence, Security, and Emergency Response; and the Office of Budget)
  may be contributing to the funds control problems. It appears that all of these
  organizational units have a role to play in accounting for activities provided by
  DOT under the National Response Plan. However, the process for accounting
  for reimbursable authority apportioned by the Office of Management and
  Budget (OMB), obligating funds, and recording expenses is unclear to
  participants.




Control No. 2006-001
                                                                                3


   We found that obligations are not being recorded (through the issuance of
   delivery orders and purchase orders) when taskings (received from FEMA) are
   issued to Landstar Express America (the contractor responsible for providing
   emergency response services) by the FAA Southern Region. Under the
   procedures described to us by responsible officials in OST and FAA’s
   Southern Region, Landstar provides FAA an estimate of the cost of services to
   be provided, FAA authorizes Landstar to perform the service, and Landstar
   completes the service and provides FAA the actual cost of the service
   provided. At that point, the obligation amount is recorded in Delphi. The
   obligation, however, should cover the estimated total cost of the services and
   should be recorded when FAA authorizes Landstar to perform the services.
   Based on information provided by FAA Southern Region, taskings/services
   totaling about $289 million had been issued to Landstar through
   September 30, 2005, but obligations of only $72 million had been recorded as
   of that date. Consequently, at the end of the fiscal year, obligations may have
   been understated by as much as $217 million.

   FAA officials informed us that, in addition to the $72 million of obligations
   recorded on FAA’s books, FAA has incurred obligations of about $157 million
   as of September 30, 2005, that have not been recorded. Thus, according to
   FAA officials, obligations as of September 30, 2005, should total $229 million.
   The $60 million difference between the taskings/services given to Landstar
   ($289 million) as of September 30, 2005, and the amount FAA believes should
   be recorded as obligations ($229 million) appears to be due to FAA actions to
   separate FY 2006 activities from FY 2005 activities. If so, FAA would
   obligate the $60 million in FY 2006.

   FAA officials also told us that they have identified about $93 million of
   additional expenses that were not recorded in FAA’s records as of
   September 30, 2005. Finally, the officials told us that they are unsure whether
   FAA or the Department has received sufficient apportionments of reimbursable
   authority from OMB to cover these obligations and expenditures.

   Clearly, circumstances exist that require the Department to better understand
   the accounting process used for hurricane emergency response activities,
   institute effective funds control, and determine whether any violations of
   appropriations law, including the Anti-deficiency Act, have occurred. FAA
   officials have told us they are coordinating with OST Budget to resolve these
   issues.

• Tracking all administrative costs. With the exception of FAA, the OAs do
  not yet have procedures and controls in place to track all administrative costs


Control No. 2006-001
                                                                                 4


   (primarily salary, travel, and supplies) related to Hurricanes Katrina, Ophelia,
   and Rita. Instead, the OAs told us they were only attempting to track and
   account for the overtime and travel costs that they expect FEMA to reimburse.
   Your guidance, however, calls for OAs to track all costs, including costs that
   will not be reimbursed.

   The OAs were not attempting to track all direct costs, such as straight time, or
   indirect costs. The OAs told us that straight time is a normal program cost that
   would have been incurred without the recent hurricanes and will not be
   reimbursed by FEMA. Regarding indirect costs, the OAs (except FAA) do not
   have procedures and controls in place to track indirect costs, such as an
   allocated share of overhead, and are waiting further guidance on this. Unlike
   the other OAs, FAA can allocate its indirect costs to specific Katrina and Rita
   projects.

• Accumulating administrative costs associated with the initial response.
  The Department will need to develop a methodology to identify administrative
  costs incurred prior to your September 23, 2005 guidance. Before then, OAs
  generally did not track all hurricane-related costs even though DOT began
  preparing to respond to Katrina on August 24, 2005. For example, FHWA
  officials told us that at one time, about 119 FHWA employees nationwide were
  deployed to the Gulf Coast area working on Katrina and Rita activities.
  However, FHWA did not track in the payroll system the time spent by these
  employees. Similarly, PHMSA officials said that 30 to 35 PHMSA employees
  worked on Katrina and Rita activities, but only their overtime was tracked in
  the payroll system.

   Your September 23, 2005 guidance called for OAs to track the full costs of
   responding to the hurricanes. Given the high level of attention being paid to
   accurately reporting hurricane-related costs, as well as the fact that Generally
   Accepted Accounting Principles for Federal agencies require the ability to
   accumulate the “full costs” of operations, we agree that the Department should
   be able to track and report all hurricane relief and recovery activities. We
   believe the Department should establish a reasonable way to estimate costs
   incurred since late August 2005, regardless of whether they will be reimbursed.

To ensure that DOT accurately tracks and reports its hurricane-related resources,
we recommend that you:




Control No. 2006-001
                                                                                 5


• Clarify roles, responsibilities, and authority for controlling and accounting for
  emergency response activities provided by the Southern Region,

• Assemble a quick-response team to visit the FAA Southern Region to validate
  all reimbursable authority, obligations, and expenditures incurred to date
  related to the hurricane activities and to institute effective funds control
  procedures,

• Determine whether any violations of appropriations law, including Anti-
  deficiency Act violations, occurred and if so, take immediate action to rectify
  and report the violations,

• Direct the FAA Southern Region to issue delivery orders and purchase orders
  when authorizing Landstar to perform taskings and promptly record
  obligations in Delphi before any services are performed by Landstar,

• Work with the OAs to establish procedures and controls to ensure that all
  direct costs, including straight time, are tracked and recorded in Delphi,

• Work with the OAs to establish procedures and controls to ensure that a
  reasonable share of indirect costs are allocated to the hurricane activities and
  are recorded in Delphi, and

• Ensure that all costs incurred by the Department related to hurricane activities
  since August 24, 2005, are accumulated.

In addition, our audits of the FY 2005 DOT financial statements (including the
audits by KPMG and Clifton Gunderson) will include procedures to determine
whether hurricane-related activities have been accurately reported as of September
30, 2005.

We look forward to continuing to work with your office to ensure that OAs
effectively implement your direction to appropriately account and report
hurricane-related activities. If you have any questions, please contact me at
(202) 366-1992 or Earl Hedges, Program Director for Financial Audits, at
(410) 962-1729.

                                        #

cc: Deputy Secretary
    Chief of Staff
    Operating Administrators
    Secretarial Officers

Control No. 2006-001
